                        U.S. Department of Agriculture

                           Office of Inspector General
                                    Southwest Region




              Audit Report

        Agricultural Marketing Service
Livestock Mandatory Price Reporting System -
             Application Controls




                                Report No. 01099-4-Te
                                      December 2004
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:          December 22, 2004

REPLY TO
ATTN OF:       01099-4-Te

SUBJECT:       Livestock Mandatory Price Reporting System - Application Controls

TO:            A. J. Yates
               Chief
               Agricultural Marketing Service

ATTN:          David Lewis
               Director, Compliance Staff
               Agricultural Marketing Service


This report presents the results of the subject audit. Your response to the official draft report,
dated December 1, 2004, is included in its entirety as exhibit A with excerpts and the Office of
Inspector General’s position incorporated into the Findings and Recommendations section of the
report. Your response contained sufficient justification to reach management decisions on all
recommendations contained in the report.

Please follow Departmental and your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer, Director, Planning and
Accountability Division. Final action on the management decisions should be completed within
1 year of the date of the management decisions to preclude being listed in the Department’s
annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
audit. If you have any questions, please contact me at 720-6945, or have a member of your staff
contact Richard J. Davis, Director, Administration and Finance Division, at 720-1918.



/s/ R. W. Young
ROBERT W. YOUNG
Assistant Inspector General
   for Audit
Executive Summary
Agricultural Marketing Service
Livestock Mandatory Price Reporting System - Application Controls
(Report No. 01099-4-Te)

Results in Brief     This report presents the results of our application controls audit of the
                     Agricultural Marketing Service’s (AMS) Livestock Mandatory Price
                     Reporting System (LMPRS). Our objective was to evaluate whether
                     AMS had adequate controls over the input, processing, and output of
                     LMPRS data.        These controls include ensuring the authorization,
                     completeness, and accuracy of the LMPRS data. AMS relies on LMPRS to
                     provide information on pricing, contracting for purchase, and supply and
                     demand conditions for livestock, livestock production, and livestock
                     products, that can be readily understood by producers, packers, and other
                     market participants. Overall, we found that AMS had authorization,
                     completeness, and accuracy controls for LMPRS data; however, the controls
                     need to be improved.

                     The LMPRS application owner is the Livestock and Grain Market News
                     Branch (MNB) of AMS. We found that MNB did not have adequate
                     LMPRS application controls including access controls, technical
                     documentation for the application, mandatory report modification process,
                     supervisory reviews, and application monitoring. LMPRS access controls
                     were not limited to the least privilege concept, defined as granting only the
                     access required for a user’s job responsibilities. While the technical system
                     documentation for LMPRS is extensive, it did not provide a complete view
                     of all files and database tables used within each module of the application.
                     LMPRS reports were modified by MNB reporters, and there was no
                     second-party review before the reports were posted on the AMS website.
                     There were no routine supervisory reviews of MNB reporters’ work and no
                     documentation of reviews that were performed. Reviews of the daily
                     LMPRS operation needed to be improved including monitoring logs and
                     authorized user tables. Therefore, LMPRS application had an increased
                     vulnerability in several areas that could result in unauthorized access and
                     errors in mandatory reports that were posted on the AMS website for the
                     public’s use. However, there was no evidence that any instances of
                     unauthorized access have occurred. During our fieldwork, MNB initiated
                     action to ensure LMPRS user access was based on least privilege.

                     We also found that MNB did not have adequate management controls to
                     ensure that Federal and Departmental guidance on information technology
                     issues was implemented. The LMPRS security plan did not meet Federal and
                     Departmental requirements, including warning banner displays, password
                     expiration, and the locking out of administrator accounts. In addition,

USDA/OIG-A/01099-4-Te                                                                      Page i
                    MNB had not submitted any of the required data to address identified
                    weaknesses for the agency Plan of Action and Milestones. MNB also was not
                    performing scans of the LMPRS network. MNB was not aware of these
                    requirements, and the AMS Chief Information Officer had not made it a
                    practice to provide information on these items unless a request was received
                    due to the workload and loss of staff.               We also found that the
                    LMPRS application had not been certified before it went into production in
                    April 2001. Officials did not adhere to Departmental guidance and stated that
                    application certifications were not a priority throughout the Government at that
                    time. The absence of a system certification increases the risk that the
                    LMPRS application could be vulnerable to security breaches and
                    cyber-related attacks. During our fieldwork, MNB corrected one security
                    plan deficiency (banner display). They also instituted scans for LMPRS
                    application servers.

Recommendations
In Brief
                    We recommend that AMS:

                    •   Establish and implement application controls to strengthen access
                        privileges, report modifications, supervisory reviews, technical
                        documentation, and application monitoring.
                    •   Establish and implement management controls to ensure that Federal and
                        Departmental guidance is followed regarding the security plan, Plan of
                        Action and Milestones, application certification, and scans.

Agency Response     In a letter dated December 1, 2004, and subsequent correspondence,
                    AMS concurred with all of the findings and recommendations and provided
                    proposed actions and completion dates for each recommendation.
                    (See exhibit A.)

OIG Position        We accept the management decisions for all of the recommendations
                    contained in the report. For final action, AMS needs to provide the Office of
                    the Chief Financial Officer, Director, Planning and Accountability
                    Division (OCFO/PAD), documentation as outlined in the Office of Inspector
                    General’s (OIG) Position sections of the report.




USDA/OIG-A/01099-4-Te                                                                       Page ii
Abbreviations Used in This Report


ADP         Automated Data Processing
AMS         Agricultural Marketing Service
CIO         Chief Information Officer
DM          Departmental Manual
GAO         Government Accountability Office
IT          Information Technology
LMPRS       Livestock Mandatory Price Reporting System
MNB         Livestock and Grain Market News Branch of AMS
NIST        National Institute of Standards and Technology
OCFO/PAD    Office of the Chief Financial Officer, Director,
            Planning and Accountability Division
OCIO        Office of the Chief Information Officer
OIG         Office of Inspector General
OMB         Office of Management and Budget
POA&M       Plan of Action and Milestones
USDA        U. S. Department of Agriculture




USDA/OIG-A/01099-4-Te                                          Page iii
Table of Contents
Executive Summary .................................................................................................................................i


Abbreviations Used in This Report ......................................................................................................iii


Background and Objectives ................................................................................................................... 1


Findings and Recommendations............................................................................................................ 3


    Section 1         Application Controls Need Improvement ................................................................... 3

        Finding 1             LMPRS Application Controls Were Inadequate .................................................... 3
                                Recommendation No. 1.................................................................................... 7
                                Recommendation No. 2.................................................................................... 8
                                Recommendation No. 3.................................................................................... 8
                                Recommendation No. 4.................................................................................... 9
                                Recommendation No. 5.................................................................................... 9
                                Recommendation No. 6.................................................................................. 10

    Section 2         Management Controls Need Improvement ............................................................... 11

        Finding 2             Information System Documentation and Policies Need Improvement ................. 11
                                  Recommendation No. 7.................................................................................. 15
                                  Recommendation No. 8.................................................................................. 15
                                  Recommendation No. 9.................................................................................. 16
                                  Recommendation No. 10................................................................................ 16
                                  Recommendation No. 11................................................................................ 16
                                  Recommendation No. 12................................................................................ 17

General Comments ............................................................................................................................... 18


Scope and Methodology........................................................................................................................ 19

Exhibit A – Agency Response .............................................................................................................. 21




USDA/OIG-A/01099-4-Te                                                                                                                    Page iv
Background and Objectives
Background   Application controls are the structure, policies, and procedures that apply to
             separate, individual application systems. An application system is typically a
             collection or group of individual computer programs that relate to a common
             function. In the Federal Government, some applications may be complex,
             comprehensive systems involving numerous computer programs and
             organizational units, such as those associated with benefit payment systems.
             Application controls can encompass both the routines contained within the
             computer program code and the policies and procedures associated with user
             activities, such as manual measures performed by the user to determine that
             data was processed accurately.

             Application controls help make certain that transactions are valid, properly
             authorized, and completely and accurately processed. They are commonly
             categorized into three phases of a processing cycle:

              •   Input—data are authorized, converted to an automated form, and entered
                  into the application in an accurate, complete, and timely manner.

              •   Processing—data are properly processed by the computer and files are
                  updated correctly.

              •   Output—files and reports generated by the application actually occur and
                  accurately reflect the results of processing and reports are controlled and
                  distributed to the authorized users.

             AMS’ LMPRS Application

             The U.S. Department of Agriculture's (USDA) Agricultural Marketing Service
             (AMS) administers programs that facilitate the efficient, fair marketing of
             U.S. agricultural products, including food, fiber, and specialty crops.
             AMS includes six commodity divisions: Cotton, Dairy, Fruit and Vegetable,
             Livestock and Feed, Poultry, and Tobacco.

             AMS’ Livestock Mandatory Price Reporting System (LMPRS) contains
             information about livestock pricing, contracting arrangements, and supply and
             demand conditions. The Livestock and Grain Market News Branch (MNB) of
             AMS implemented the LMPRS in April 2001 in response to the Livestock
             Mandatory Reporting Act of 1999 (Act), part of the Fiscal Year 2000
             Agricultural Appropriation Bill. Under the Act, larger livestock packers,
             processors, and importers electronically report certain market information
             regarding transactions of cattle, swine, lamb, and livestock products to USDA.
             LMPRS is designed to collect the information and summarize it in the form of
             national reports, which are available to the public on the AMS website.
                          Approximately 134 meat processing plants submit mandatory data to the
                          LMPRS application on a daily and weekly basis. At least two times each day,
                          reporters in the MNB field offices in Des Moines, Iowa, and St. Joseph,
                          Missouri, manually import the market information received from the plants
                          into the LMPRS production database. The reporters have approximately
                          1 hour from importing the data to create reports and post them to the
                          AMS website.

                          The LMPRS application servers are located at two sites - Ashburn, Virginia
                          (primary servers), and Richardson, Texas (secondary servers). The LMPRS
                          network is external to the Department’s network, which was unable to
                          accommodate LMPRS activity.

                          Three contractors and one subcontractor support the LMPRS application. The
                          application contractor developed and maintains the application and is also the
                          system administrator for the LMPRS application. The facility contractor
                          stores AMS-owned servers and other hardware on its property in a secure and
                          protected room. The hardware maintenance contractor provides maintenance
                          functions for hardware switch configuration and supports the firewalls used to
                          protect the LMPRS application. The firewall subcontractor manages the
                          LMPRS firewall and intrusion detection systems.

                          The following diagram illustrates the data flow of the LMPRS application:


                             `
                                                                     Meat Processing Plants

        Ashburn, VA (Primary Servers)       Firewall




                                                                                              AMS Users

                                                  Internet


                                                              USDA Network

     Richardson, TX (Secondary Servers)


                                                 Firewall




Objective                 The objective of this audit was to determine whether AMS had established
                          adequate controls to ensure that data entered into LMPRS are properly
                          authorized, completely processed, and accurately processed.
Findings and Recommendations
Section 1          Application Controls Need Improvement



    Finding 1                      LMPRS Application Controls Were Inadequate

                                  Our review of LMPRS application controls disclosed several weaknesses
                                  involving the assignment of access privileges, reviews by supervisors of
                                  modified reports, technical documentation, reviews and documentation of
                                  reporter’s daily activities, and reviews of the daily operations of the
                                  LMPRS application. The causes of the weaknesses in each of the five areas
                                  are outlined in the sections below. As a result, the LMPRS application has
                                  an increased vulnerability in several areas that could result in unauthorized
                                  access and errors in mandatory reports that are posted on the AMS website.
                                  (Although, we did not identify any instances of unauthorized access.)

                                  Access Controls

                                  An excessive number of LMPRS users had access privileges that exceeded
                                  the needs of their job responsibilities. Inadequate internal controls allowed
                                  MNB staff to routinely assign the same access privilege to internal users
                                  without considering the users’ job responsibilities. As a result, the
                                  LMPRS application had an increased risk of unauthorized use, such as the
                                  creation and deletion of valid/invalid users or unauthorized access to valid
                                  LMPRS accounts.

                                   Federal,1 Departmental,2 and National Institute of Standards and Technology
                                   (NIST)3 guidance state users should be granted access based on the least
                                   privilege concept. Least privilege refers to the security objective of granting
                                   users only those accesses they need to perform their official responsibilities.

                                  Access controls over system and application data include both physical and
                                  logical controls and should provide reasonable assurance that computer
                                  resources (data files, application programs, and computer equipment) are
                                  protected against unauthorized modification, disclosure, loss, or impairment.
                                  Logical access controls, such as user names, passwords, and access
                                  permissions, ensure that only authorized users have access to network
                                  resources from their workstations, and that users are granted only the access
                                  that is needed to conduct their job responsibilities.




1
  Office of Management and Budget (OMB) Circular A-130, Appendix III, “Security of Federal Automated Information Resources,” section A, dated
November 28, 2000
2
  Departmental Manual (DM) 3140-1, Management ADP Security Manual, Appendix D, section 7 - Vulnerability to Unauthorized Disclosure, dated
July 19, 1984
3
  NIST SP800-12, An Introduction to Computer Security: The NIST Handbook, Chapter 10, section 10.2.1, dated October 1995
                                    There were three groups of users who accessed LMPRS: AMS users4
                                    (47 user accounts), meat processing plant users (134 user accounts), and
                                    LMPRS system administrators (4 user accounts - all application contractors).
                                    AMS and meat processing plant user accounts are created and deleted by
                                    MNB information technology (IT) specialists. Meat processing plant users
                                    have a “plant” access profile, which allows limited privileges. An AMS user
                                    can have a “reporter” access profile, an “administrator” access profile, or a
                                    “reporter/administrator” profile. An LMPRS user with the “administrator”
                                    access profile is allowed to modify users and passwords for the
                                    LMPRS application. The type of profile is chosen when MNB IT specialists
                                    create the AMS user account.

                                    MNB staff stated that they routinely gave AMS users both “reporter” and
                                    “administrator” access profiles. We found 36 of 47 AMS users had
                                    “administrator” access profiles. MNB stated that this had occurred due to the
                                    need to allow the reporters access to other data that was needed for their job
                                    responsibilities and because the staff routinely gave both profiles to
                                    AMS users. In a prior audit report,5 OIG found that least privilege was an
                                    issue for other AMS applications that were reviewed. During our fieldwork,
                                    MNB modified which AMS users were allowed access to the
                                    LMPRS application and had the contractor modify the users’ access profiles.
                                    After the modifications, there were nine users with the
                                    “reporter/administrator” profile (six AMS users and three application
                                    contractors) whose job responsibilities required the access profile.

                                    Report Modification

                                    Some LMPRS application reports were routinely modified and posted on the
                                    website without further review. MNB did not have adequate internal controls
                                    to ensure that modified reports were subject to a second-party review by
                                    reporters’ peers before being published on the AMS website. The
                                    supervisors considered the reporters experts and did not feel a review was
                                    necessary. As a result, there was an increased risk of errors in the mandatory
                                    reports posted on the AMS website for public use.

                                    MNB desk procedures require reporters to review the reports they produce
                                    before posting on the AMS website. Reporters work in pairs and review
                                    portions of each other’s work. However, the desk procedures did not require
                                    second-party review of reports before they were posted on the website.
                                    Federal guidance6 states internal controls should provide reasonable
                                    assurance that the objectives of the agency are being achieved, including
                                    reliability of reports for internal and external use, and should be designed to
                                    assure that ongoing monitoring occurs in the course of normal operations.
                                    Internal controls should be performed continually and be ingrained in the

4
  AMS users consist of AMS Audit Review and Compliance Auditors and MNB users.
5
  Audit Report No. 01099-1-FM, “Security Over Information Technology Resources at the Agricultural Marketing Service,” dated March 2002
6
  Government Accountability Office (GAO), Standards for Internal Control in the Federal Government, Introduction and Monitoring Sections, dated
November 1999
                                   agency’s operations, including regular management and supervisory
                                   activities, comparisons, reconciliations, and other actions people take in
                                   performing their duties.

                                   During our fieldwork, we observed the modification of two daily mandatory
                                   reports before they were posted on the AMS website. A trend number for a
                                   swine report was manually calculated and then changed, and data for a boxed
                                   beef report was modified to meet mandatory confidentiality criteria. We
                                   determined that the trend number could be calculated by the application if a
                                   modification was made to the application. MNB officials were aware of this
                                   and had requested changes to the LMPRS application about 2 years ago. Due
                                   to a change in personnel, the issue was never resolved. MNB supervisors
                                   explained that there was no second-party review because the reporters are
                                   considered the experts. MNB officials requested the application contractor
                                   determine what type of effort would be involved in making a program change
                                   to the trend calculation. However, the confidentiality data for the boxed beef
                                   report could not be handled by the application because parameters change
                                   frequently. During our fieldwork, MNB officials agreed that it was
                                   reasonable to pursue establishing procedures for second-party reviews of
                                   LMPRS reports.

                                   Technical Documentation

                                   While the technical system documentation for LMPRS is extensive, it did not
                                   provide a complete view of all files and database tables used within each
                                   module of the application. MNB did not have adequate internal controls
                                   requiring detailed technical documentation because they felt the
                                   documentation MNB requested of the contractor was adequate. In addition,
                                   MNB relied heavily on the current application contractor to provide technical
                                   information for the LMPRS application. There was a risk of system
                                   downtime if the current MNB application contractor was no longer available.

                                   Departmental7 guidance states that agencies with new or significantly
                                   modified application systems should assure the development of adequate
                                   systems, program, operational, and user documentation and recognize8 the
                                   risk of a heavy reliance on contractors or other related parties to perform
                                   critical agency functions.

                                   NIST guidance9 states documentation of all aspects of computer support and
                                   operations is important to ensure continuity and consistency. The guidance
                                   also states formalizing operational practices and procedures in sufficient
                                   detail helps to eliminate security lapses and oversights, gives new personnel
                                   sufficiently detailed instructions, and provides a quality assurance function to
                                   help ensure that operations will be performed correctly and efficiently.


7
  DM 3140-1, Management ADP Security Manual, Section 17 - Application System Development, dated July 19, 1984
8
  DM 1110-2, Management Control Manual, Chapter 2, section 5 - Guidelines for Developing a Management Control Process, dated November 29, 2002
9
  NIST SP800-12, An Introduction to Computer Security: The NIST Handbook, Chapter 14, section 14.6, dated October 1995
                                      The contractor provided a user guide for plant users and an administrator’s
                                      guide for MNB users. There also is contractor-provided documentation for
                                      certain program functions used by the application and a high-level flowchart
                                      of the application.     However, there is no comprehensive technical
                                      documentation that describes all of the application’s tables and files
                                      including how transactions flow through the application. MNB felt that the
                                      original documentation requested from the contractor was sufficient.
                                      However, MNB officials have agreed that additional technical documentation
                                      should be obtained and stated the application contractor would be consulted
                                      on this issue.

                                      Supervisory Reviews

                                      MNB field office staff did not routinely perform supervisory reviews of
                                      MNB reporters’ daily activities, and the reviews that were performed were
                                      not documented. MNB did not have adequate internal controls for review of
                                      MNB reporters’ daily activities because supervisors did not believe it was
                                      necessary. There is an increased risk of errors occurring in the mandatory
                                      report process.

                                      Federal guidance10 states internal control should generally be designed to
                                      assure that ongoing monitoring occurs in the course of normal operations,
                                      that it is performed continually and is ingrained in the agency’s operations,
                                      and that it includes regular management and supervisory activities,
                                      comparisons, reconciliations, and other actions people take in performing
                                      their duties.

                                      We interviewed supervisors and managers at the Des Moines field office.
                                      They stated that there was no documentation of, or consistent schedule for,
                                      supervisory reviews of the reporters’ work, including transactions that are
                                      excluded from the mandatory LMPRS reports posted on the AMS website.
                                      The reporters submit a Daily Report Log, which summarizes the reporting
                                      activities each day, to supervisors. The Daily Report Logs contain the time
                                      of import of records, list of packers not submitting data and reason and
                                      percentage of records excluded, and the percent of records used in the
                                      reports. However, the supervisors do not routinely review the reporters’
                                      daily work that is summarized in the logs. MNB supervisors stated that the
                                      reporters were experts and that they trusted the reporters’ judgment in
                                      making decisions.

                                      Application Monitoring

                                      MNB did not routinely monitor the daily operations of the application such
                                      as adequately reviewing database tables containing authorized users, firewall
                                      logs, and web server logs. MNB did not have adequate internal controls in
                                      place because officials were satisfied with their current monitoring activities.

10
     GAO, Standards for Internal Control in the Federal Government, Monitoring Section, dated November 1999
                                      Insufficient monitoring may increase the vulnerability of LMPRS to attacks,
                                      including inappropriate or unauthorized access and potential system
                                      downtime.

                                      Federal guidance11 states internal control should generally be designed to
                                      assure that ongoing monitoring occurs in the course of normal operations,
                                      that it is performed continually and is ingrained in the agency’s operations,
                                      and that it includes regular management and supervisory activities,
                                      comparisons, reconciliations, and other actions people take in performing
                                      their duties. The guidance12 also states management should ensure that skill
                                      needs are continually assessed and that the organization is able to obtain a
                                      workforce that has the required skills that match those necessary to achieve
                                      organizational goals. Training should be aimed at developing and retaining
                                      employee skill levels to meet changing organizational needs.

                                      While the contractor monitors the firewall logs, MNB officials receive a
                                      summary of these logs daily, which contains the top threats and top threat
                                      sources for that day. MNB officials stated that they did not know much
                                      about the firewall logs. We obtained examples of the types of training the
                                      MNB IT staff had recently received; however, the list did not include any
                                      type of firewall training. MNB was not performing reviews of the authorized
                                      application users and web server access logs. The web server logs contain
                                      transaction data of submissions and retrievals of information from the
                                      application. The transactions that are recorded by these logs also can be used
                                      to monitor the date and time LMPRS users accessed the application.
                                      MNB officials stated they have routine meetings with the application
                                      contractor; however, there were no routine reviews of server logs.
                                      MNB officials did not have routine meetings with the other two contractors
                                      (firewall and facility).

Recommendation No. 1

                                       Establish and implement application controls to ensure that LMPRS users
                                       are given only the access privileges required for assigned job duties.

                                       Agency Response. AMS concurs with this recommendation. During the
                                       review, MNB staff modified the user access privileges to ensure that only
                                       those users whose job responsibilities require Administrator access have that
                                       privilege. No later than May 31, 2005, AMS will develop written procedures
                                       that will be incorporated in the Trusted Facilities Manual, developed during
                                       the certification and accreditation process, for MNB IT staff to follow when
                                       establishing new AMS and plant user accounts to ensure that Administrator
                                       access is given only to those users that require it.




11
     GAO, Standards for Internal Control in the Federal Government, Monitoring Section, dated November 1999
12
     GAO, Standards for Internal Control in the Federal Government, Managing Human Capital, dated November 1999
                  OIG Position.        We accept the AMS management decision for
                  Recommendation No. 1. In our opinion, final action will be completed
                  when AMS provides OCFO/PAD documentation of the written procedures
                  that have been developed to ensure that Administrator access is given only
                  to AMS and plant user accounts that require it.

Recommendation No. 2

                  Determine all the mandatory reports that are modified before posting to the
                  AMS website. For each report that is modified, (a) establish and implement
                  application controls to ensure that the report is reviewed for correctness
                  before being posted on the website, and (b) where possible, change the
                  application to perform the needed functions.

                  Agency Response. AMS concurs with this recommendation. No later
                  than May 31, 2005, MNB will determine all of the mandatory reports that
                  are modified prior to being posted on the AMS website and will establish
                  written procedures in an LMPRS reporter desk manual to ensure that all of
                  the reports are subject to a second-party review by another reporter prior to
                  publication. With respect to the reports that are being modified due to
                  confidentiality concerns, AMS has determined that it is not possible to
                  modify the application to perform this function. With respect to the swine
                  reports in which a trend number is manually calculated, AMS will pursue
                  modifying the application to perform this function in the next swine
                  enhancement effort, which is anticipated to occur in fiscal year 2006.

                  On December 8, 2004, AMS provided correspondence with the following
                  clarification: With respect to the AMS response to Recommendation No. 2,
                  the swine reports that are modified to manually calculate the trend number
                  will be subject to the second-party review procedures that AMS will
                  establish, no later than May 31, 2005, until such time that the application is
                  modified to perform this function.

                  OIG Position.       We accept the AMS management decision for
                  Recommendation No. 2. In our opinion, final action will be completed when
                  AMS provides OCFO/PAD documentation of the written procedures that
                  have been developed to ensure the correctness of modified reports.

Recommendation No. 3

                  Obtain necessary technical documentation for LMPRS.

                  Agency Response. AMS concurs with this recommendation. While
                  AMS believes the current technical documentation for LMPRS is extensive,
                  as a part of the contract that was awarded in September 2004 for the fiscal
                  year 2004 enhancements, additional system documentation will be
                  developed that details all of the application’s tables and files, including how
                  transactions flow through the applications. This will be completed no later
                  than May 31, 2005.

                  OIG Position.     We accept the AMS management decision for
                  Recommendation No. 3. In our opinion, final action will be completed when
                  AMS provides OCFO/PAD evidence of the additional LMPRS
                  documentation.

Recommendation No. 4

                  Establish and implement application controls for reviews of MNB reporters’
                  activities, including documentation of the reviews.

                  Agency Response. AMS concurs with this recommendation. No later
                  than May 31, 2005, MNB will develop procedures to be incorporated in the
                  LMPRS reporter desk manual to document weekly reviews of
                  MNB reporters’ activities, including transactions that were excluded from
                  the LMPRS reports, by the appropriate supervisor(s).

                  OIG Position.          We accept the AMS management decision for
                  Recommendation No. 4. In our opinion, final action will be completed when
                  AMS provides OCFO/PAD documentation of the written procedures that
                  have been developed to ensure supervisory reviews of MNB reporters’
                  activities are performed and documented.

Recommendation No. 5

                  Establish and implement application controls for review of the daily
                  operations of the LMPRS application.

                  Agency Response. AMS concurs with this recommendation. No later
                  than May 31, 2005, AMS will establish and implement controls to review
                  the daily operations of the LMPRS application. As a part of the contract that
                  was awarded in September 2004 for the fiscal year 2004 enhancements, the
                  LMPRS application will generate a nightly audit report that will include
                  items such as the number of imports run (including details for each import),
                  total LMPRS records processed, total LMPRS bad records detected, the
                  number of reports run (including details for each report), user account
                  details, and other application information.

                  OIG Position.     We accept the AMS management decision for
                  Recommendation No. 5. In our opinion, final action will be completed when
                  AMS provides OCFO/PAD documentation of the written procedures that
                  have been developed to review the daily operations of the LMPRS
                  application.
Recommendation No. 6

                  Establish and implement application controls to ensure that the appropriate
                  personnel receive adequate training to monitor the LMPRS application.

                  Agency Response. AMS concurs with this recommendation. AMS has
                  outsourced both the overall administration of the system, including
                  management of the system firewalls, to third-party contractors.
                  AMS believes these contractors have the qualifications and skills necessary
                  to effectively carry out these tasks. In the event that additional expertise is
                  needed to review either firewall logs or other system functions, agency
                  IT personnel are available to MNB for consultation as needed. If AMS
                  believes further training is needed for overall program management,
                  AMS will pursue obtaining additional training as appropriate.

                  OIG Position.     We accept the AMS management decision for
                  Recommendation No. 6. The proposed actions, in our opinion, are sufficient
                  for final action.
Section 2           Management Controls Need Improvement



Finding 2                           Information System                       Documentation                 and        Policies         Need
                                    Improvement

                                    Our review of the LMPRS application disclosed several conditions that were
                                    not in accordance with Federal and Departmental guidance. The security
                                    plan did not address all requirements. MNB did not submit Plan of Action
                                    and Milestones (POA&M) data to address LMPRS application weaknesses.
                                    MNB had not certified the LMPRS application or performed scans of the
                                    LMPRS network for system vulnerabilities. The cause of the conditions was
                                    that AMS had inadequate management controls to ensure Federal and
                                    Departmental guidance was followed, as outlined in the sections below. As
                                    a result, the LMPRS application could be vulnerable to security breaches and
                                    cyber-related attacks.

                                    Security Plan

                                    The LMPRS security plan did not address all Federal and Departmental
                                    requirements including waivers for noncompliance with policies requiring
                                    warning banner displays, user password expiration, and locking out of
                                    administrator accounts on the LMPRS servers. In addition, the security plan
                                    did not indicate the current status of all elements outlined in the security plan
                                    guidance. AMS’ CIO had not informed MNB of the requirements outlined
                                    in the guidance. Thus, MNB officials were not aware of all the requirements
                                    outlined by the guidance. As a result, the LMPRS application could be
                                    vulnerable to security breaches.

                                    Federal guidance13 states that all major applications and general support
                                    systems containing sensitive information require protection to assure their
                                    integrity, availability, or confidentiality, and therefore require security plans.
                                    Departmental guidance requires warning14 banners, password15 expiration,
                                    and locking out of user accounts.16 Further,17 when it is not feasible to apply
                                    a particular standard to an existing automated data processing (ADP) system
                                    without excessive costs, agencies are to devise an alternate scheme for
                                    adequate protection and then request a waiver. Office of the Chief
                                    Information Officer (OCIO) guidance18 also requires the security plan to
                                    discuss upcoming agency plans for implementing the agency security
                                    awareness, training, and education programs including planned annual


13
   OMB Circular A-130, Appendix III, “Security of Federal Automated Information Resources,” section A, dated November 28, 2000
14
   Departmental Regulation 3140-1, USDA Information Systems Security Policy, Section 15 - System Warning Message, dated May 15, 1996
15
   DM 3140-1, Management ADP Security Manual, Appendix D, section 6, part b, dated July 19, 1984
16
   DM 3140-1, Management ADP Security Manual, Appendix D, section 5 - Requirements, dated July 19, 1984
17
   DM 3140-1, Management ADP Security Manual, Section 7 - Security Program Requirements, dated July 19, 1984
18
   OCIO Cyber Security (CS)-25,Annual Agency Security Plans for Information Technology Systems and Security Programs Guidance, dated
April 8, 2003
                                       security seminars. The Departmental OCIO’s office issued a letter19 stating
                                       annual security plans are recognized as one tool to assess and report on the
                                       protection of agency assets. Therefore, it is critical that they be
                                       prepared/updated on a regular basis with the most current information
                                       concerning each agency’s information security practices.

                                       The most recent LMPRS security plan, dated January 6, 2004, stated, “The
                                       LMPRS does not display banners or legal notices prior to the display of the
                                       logon dialog box. Implementing this would require an administrator to
                                       physically click ‘ok’ to get past the desktop, which would prevent certain
                                       critical applications in the startup group not to start without a manual
                                       interface. Servers are set up to automatically reboot periodically,
                                       implementing the above requirement would impact this job.” The security
                                       plan also stated that LMPRS user passwords did not expire. In addition, the
                                       security plan stated, “There is currently no lockout feature in place for the
                                       LMPRS servers. All accounts belong to the administrator group, and
                                       therefore cannot be locked out or disabled.” When asked about the
                                       above-mentioned requirements, MNB responded that it was not aware that
                                       waivers were required for conditions that did not comply with security plan
                                       guidance until notified by OIG during our fieldwork. During our fieldwork,
                                       MNB modified the application to display warning banners, and has initiated
                                       changes to the application to resolve the password expiration issue.
                                       MNB stated it would pursue getting a waiver for the locking out of the
                                       system administrator accounts from OCIO and also discuss the need to have
                                       the system administrator accounts lock out.

                                       The LMPRS security plan did not include the frequency of security training,
                                       as required by the OCIO guidance stated above. MNB stated that there was
                                       annual security training for personnel as well as training on the
                                       LMPRS application before using the application, even though it was not
                                       noted in the security plan. Also, the wording in the security plan did not
                                       always indicate the current status of the element being reported on. For
                                       instance, the word “should” used in the Rules of Behavior section does not
                                       indicate if the rules are being used.

                                       Plan of Action and Milestones

                                       MNB did not prepare and submit POA&M data to address identified
                                       weaknesses in the LMPRS application. The AMS CIO had not informed
                                       MNB of the requirements outlined in the Federal guidance. Thus,
                                       MNB officials were not aware of all the requirements outlined by the
                                       Federal20 guidance. The LMPRS application could be vulnerable to any
                                       weaknesses that have been identified in risk assessments, network
                                       vulnerability scans, and audit reports.



19
     OCIO Letter, Annual Agency Security Plans for Information Technology Systems and Security Programs, dated April 28, 2003
20
     OMB, Memorandum for the Heads of Executive Departments and Agencies, M-02-01, dated October 17, 2001
                                    Federal guidance21 states, “An agency should develop a separate POA&M
                                    for every program and system for which weaknesses were identified * * *.”
                                    The guidance further states, “Thereafter, brief status updates must be
                                    submitted on a quarterly basis.”

                                    MNB was not aware of the submission requirements for a POA&M until
                                    notified by OIG during our fieldwork. The AMS CIO stated that his office
                                    was responsible for preparing the POA&M for the agency and that each
                                    branch was responsible for reporting vulnerabilities. We obtained a copy of
                                    the most recent POA&M submissions from the AMS CIO. There were no
                                    submissions from MNB. Although AMS’ CIO did not make it a practice to
                                    send out specific communications on Departmental requirements because of
                                    the workload and loss of staff, the AMS CIO’s office was available to
                                    consult with the branches.

                                    Since the LMPRS vulnerabilities from a recent risk assessment were not
                                    “high” risk, MNB made the decision to include the complete POA&M in the
                                    planned certification and accreditation process due in September 2004. The
                                    AMS CIO stated that his office formed a new Cyber Security Branch in
                                    June 2004 that will be more involved with each of the AMS program areas.

                                    Certification and Accreditation

                                    The LMPRS application had not been certified and accredited. MNB did not
                                    follow Federal and Departmental guidance requiring certification and
                                    accreditation when the application went into production in April 2001 and
                                    had not pursued the matter since. As a result, the LMPRS application could
                                    be vulnerable to security breaches and cyber-related attacks.

                                    Departmental guidance22 states the need for certification is recognized by the
                                    OMB23 and that Federal agencies are required to certify the security of
                                    sensitive computer application systems and perform recertification at least
                                    every 3 years.

                                    MNB officials stated that when the LMPRS went into production in
                                    April 2001, the certification and accreditation process was not adhered to on
                                    a Departmental level. The Department has set September 2004 as the date
                                    for certifications to be completed, and MNB stated that the LMPRS
                                    certification process should be completed before September 2004. The
                                    AMS CIO agreed with the branch’s assessment that the Department had not
                                    been adhering to the certification requirements in the past. The CIO stated
                                    that Federal guidance had not been in place for the process and had been
                                    recently developed. The AMS CIO also stated that his office formed a new
                                    Cyber Security Branch in June 2004 that will be more involved with each of
                                    the AMS program areas.

21
   OMB, Memorandum for the Heads of Executive Departments and Agencies, M-02-01, dated October 17, 2001
22
   DM 3140-1, Management ADP Security Manual, Section 12 - Application Certification and Recertification, dated July 19, 1984
23
   OMB Circular A-130, Appendix III, “Security of Federal Automated Information Resources,” General Support Systems, dated November 28, 2000
                                     Network Scans

                                     The current LMPRS network was not being scanned at the time of our
                                     fieldwork. MNB had no formal policies and procedures in place to ensure
                                     network scans are completed and corrective actions are taken on
                                     vulnerabilities identified on the LMPRS network due to an oversight by
                                     officials. As a result, LMPRS servers and networks could be vulnerable to
                                     cyber-related attacks, jeopardizing the integrity and confidentiality of the
                                     data compiled on tracking and reporting livestock data.

                                     OMB Circular A-13024 requires agencies to maintain security commensurate
                                     with the risk and magnitude of the harm resulting from the loss, misuse, or
                                     unauthorized access to or modification of information. This includes
                                     assuring that systems and applications used by the agency operate effectively
                                     and provide appropriate confidentiality, integrity, and availability through
                                     the use of cost-effective management, personnel, operational, and technical
                                     controls. Departmental guidance25 requires agencies to keep an inventory of
                                     their network, to perform monthly network scans, and to develop and
                                     implement corrective action plans to address critical vulnerabilities. Federal
                                     guidance26 also states that contractors are held to the same security standards
                                     as Government entities.

                                     We used a commercially available software tool that identifies
                                     vulnerabilities in network components that use the Transmission Control
                                     Protocol/Internet Protocol (the protocol used on the public Internet). We
                                     found one medium-risk and no high-risk vulnerabilities on LMPRS network
                                     routers, switches, and servers. The medium-risk vulnerability was a
                                     software analysis function that was enabled and could be exploited.
                                     Sensitive system information could be obtained and used to further attack
                                     the servers.

                                     MNB officials stated that they did not realize that they needed to (1) scan
                                     servers before placing the servers on the network, (2) include IP addresses
                                     for routers and switches in the scanning process, and (3) develop corrective
                                     action plans to address identified vulnerabilities. In a prior audit,27 we
                                     reported that network scans were not being performed. The officials stated
                                     the internal servers that were not part of LMPRS were being scanned
                                     regularly as a result of the prior audit. The MNB official stated that because
                                     the LMPRS servers are outside the USDA network (see diagram on page 2)
                                     that they were overlooked. The AMS CIO stated that he was not aware that
                                     scans of the LMPRS network were not being performed and told the
                                     appropriate staff that all AMS servers should be scanned including those
                                     external to the USDA network. During the audit fieldwork, MNB started

24
   OMB Circular A-130, Appendix III, “Security of Federal Automated Information Resources,” section A, dated November 28, 2000
25
   DM 3500-2, Cyber Security Manual, Chapter 6, part 1, dated April 4, 2003
26
    Federal Information Security Management Act of 2002, dated December 17, 2002
27
   Audit Report No. 10099-1-FM, “Security Over Information Technology Resources at the Agricultural Marketing Service,” dated March 2002
                  performing monthly scans of the LMPRS servers and plans to add scans of
                  the switches and routers soon. Due to our audit work, AMS became aware
                  that the facility contractor had a process in place for identifying and
                  mitigating network vulnerabilities; however, assurance of this fact was not
                  mentioned in the statement of work or contract for hosting the
                  LMPRS system. The AMS CIO stated that his office formed a new Cyber
                  Security Branch in June 2004 that will be more involved with each of the
                  AMS program areas.

Recommendation No. 7

                  Establish and implement management controls to ensure that the
                  LMPRS security plan conforms to Federal and Departmental regulations,
                  including the requirement that appropriate waivers for existing and future
                  LMPRS noncompliant conditions are requested and each area of the plan is
                  completely addressed.

                  Agency Response. AMS concurs with this recommendation. MNB will
                  work with the newly establish Cyber Security Branch to ensure that the
                  LMPRS security plan conforms to Federal and Departmental regulations,
                  including appropriate waivers for noncompliant conditions. No later than
                  May 31, 2005, MNB and the Cyber Security Branch will ensure that the
                  LMPRS security plan is updated as appropriate. On December 13, 2004,
                  AMS provided correspondence with the following clarification: Further, no
                  later than September 2005, management controls will be established and
                  implemented to ensure future security plans conform with Federal and
                  Departmental regulations.

                  OIG Position.         We accept the AMS management decision for
                  Recommendation No. 7. In our opinion, final action will be completed when
                  AMS provides OCFO/PAD documentation of management controls to
                  ensure that the LMPRS security plan conforms to Federal and Departmental
                  regulations, including an updated LMPRS security plan.

Recommendation No. 8

                  Establish and implement management controls to ensure POA&M data is
                  compiled and updated as required for LMPRS.

                  Agency Response. AMS concurs with this recommendation. MNB and
                  Cyber Security Branch staff will ensure a POA&M is completed for the
                  LMPRS by January 31, 2005. On December 13, 2004, AMS provided
                  correspondence with the following clarification: Further, no later than
                  September 2005, management controls will be established to ensure that
                  POA&M data will be routinely updated in the future.
                  OIG Position.      We accept the AMS management decision for
                  Recommendation No. 8. In our opinion, final action will be completed when
                  AMS provides OCFO/PAD documentation of a completed POA&M that
                  includes LMPRS data.

Recommendation No. 9

                  Establish and implement management controls to ensure that the appropriate
                  agency personnel are aware of Departmental requirements for information
                  security, including security plans, POA&M data, and network scans.

                  Agency Response. AMS concurs with this recommendation. AMS will
                  supplement Departmental guidance with written agency directives regarding
                  the use of system security plans, network patching and scanning, and
                  POA&M reporting by September 2005.

                  OIG Position.       We accept the AMS management decision for
                  Recommendation No. 9. In our opinion, final action will be completed when
                  AMS provides OCFO/PAD documentation of the written agency directives
                  for system security plans, network patching and scanning, and POA&M
                  reporting.

Recommendation No. 10

                  Establish and implement management controls for the certification,
                  accreditation, and periodic recertification of the LMPRS application.

                  Agency Response. AMS concurs with this recommendation. The
                  LMPRS application was certified and accredited on September 9, 2004.
                  AMS will ensure that the LMPRS application is recertified as required by
                  Federal and Departmental guidance. On December 13, 2004, AMS provided
                  correspondence with the following clarification: Further, no later than
                  September 2005, management controls will be established and implemented
                  to ensure the LMPRS application will be recertified as required by Federal
                  and Departmental guidance.

                  OIG Position.         We accept the AMS management decision for
                  Recommendation No. 10. In our opinion, final action will be completed
                  when AMS provides OCFO/PAD documentation that the LMPRS
                  application has been certified and accredited.

Recommendation No. 11

                  Establish and implement management controls to perform monthly network
                  scans of LMPRS and develop corrective action plans for critical
                  vulnerabilities.
                  Agency Response. AMS concurs with this recommendation. MNB
                  began monthly scans of the LMPRS network during the OIG review. Any
                  critical vulnerability that is identified is provided to the contractor for
                  appropriate mitigation. Any corrective action taken (e.g., security patches)
                  is documented in the system documentation. No later than May 31, 2005,
                  the Trusted Facilities Manual will be modified to include the procedures for
                  performing scans and addressing any corrective action required.

                  OIG Position.        We accept the AMS management decision for
                  Recommendation No. 11. In our opinion, final action will be completed
                  when AMS provides OCFO/PAD documentation of the written procedures
                  for performing scans and addressing any corrective action required.

Recommendation No. 12

                  Establish and implement management controls to ensure contracts with
                  service organizations include coverage of vulnerability identification and
                  mitigation, such as router scans.

                  Agency Response. AMS concurs with this recommendation. The only
                  AMS service agreement that involves contractor support for vulnerability
                  identification and mitigation is the LMPRS agreement. MNB will modify
                  the LMPRS service agreement upon its renewal in September 2005 to
                  specify vulnerability identification and mitigation services. On
                  December 13, 2004, AMS provided correspondence with the following
                  clarification: Further, no later than September 2005, management controls
                  will be established and implemented to ensure that any future contracts will
                  include coverage of vulnerability and mitigation.

                  OIG Position.      We accept the AMS management decision for
                  Recommendation No. 12. In our opinion, final action will be completed
                  when AMS provides OCFO/PAD documentation that the LMPRS contract
                  has been modified to include vulnerability identification and mitigation
                  services.
General Comments
                                      We determined that the operations of two of the four LMPRS contractors
                                      have had some level of review by a third party. Professional auditing
                                      standards28 state that when a user organization uses a service organization,
                                      transactions that affect the user organization’s financial statements are
                                      subjected to controls that are, at least in part, physically and operationally
                                      separate from the user organization. Service organizations include bank
                                      trust departments that invest and service assets for employee benefit plans or
                                      for others, mortgage bankers that service mortgages for others, and
                                      application service providers that provide packaged software applications,
                                      and a technology environment that enables customers to process financial
                                      and operational transactions.

                                      External users of the LMPRS application rely on the data for financial
                                      decisions such as the purchase and sale of livestock. Therefore, we believe
                                      that it would be prudent for MNB to require reviews for the LMPRS
                                      contractors, which are conducted based on the above-mentioned professional
                                      auditing standards.




28
  American Institute of Certified Public Accountants Professional Standards, AU Section 324: Service Organizations, as amended by applicable
statements on auditing standards
Scope and Methodology
          Our audit was part of a nationwide audit of selected USDA agencies. We
          selected AMS’ LMPRS application from a listing submitted in November
          2003 by USDA agencies of their major applications and general support
          systems needing to be certified and accredited by September 2004 to OCIO.
          The application was chosen based on it being mission critical and our
          knowledge of previous agency audits.           The Livestock and Grain
          MNB Headquarters is in Washington, D.C., and the two field offices that
          handle mandatory information are in Des Moines, Iowa, and St. Joseph,
          Missouri. There are approximately 134 plants that submit mandatory data to
          the LMPRS application.         We performed audit work at the AMS
          MNB located in Washington, D.C., and the AMS Des Moines Field Office
          in Des Moines, Iowa. We also visited the application contractor, who
          developed and maintains the application for AMS, and four judgmentally
          selected plants. We reviewed the AMS LMPRS activities for fiscal year
          2004 and other years as necessary to develop the findings. We selected
          transactions made during the period from October 1 to October 24, 2003,
          comprised of data from 115 of the 134 plants. We selected 4 of the
          115 plants to visit. Our fieldwork was performed during and for the period
          January 2004 thorough July 2004.

          To accomplish our audit objectives, we performed the following procedures:

          •   We interviewed responsible agency and contractor officials managing the
              application system, as well as both agency and plant users of the system.

          •   We reviewed, tested, and compared LMPRS application policies,
              procedures, handbooks, and administrative records to the requirements of
              Federal regulations, Departmental regulations, and other sources.

          •   We judgmentally selected 4 of 115 plants to examine controls over
              source documents and submission of LMPRS mandatory information.
              The plant selections were based on the method of data submission and
              proximity to the OIG Southwest Regional Office and the AMS
              Des Moines Field Office.      The controls we examined included
              authorization, data terminal security, and accuracy of the data
              submissions. We verified a sample of transaction data submitted by each
              of the four plants.

          •   We performed Transmission Control Protocol/Internet             Protocol
              vulnerability scans on various LMPRS network components.
This audit was conducted in accordance with generally accepted Government
auditing standards. Therefore, the audit included tests of program and
accounting records considered necessary to meet the audit objectives.
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 5
